<html>
<title> - OLEG SENTSOV AND RUSSIA'S HUMAN RIGHTS VIOLATIONS AGAINST UKRAINIAN CITIZENS</title>
<body><pre>[Joint House and Senate Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



115th Congress }                            Printed for the use of the              
                        
 1st Session   }       Commission on Security and Cooperation in Europe

======================================================================


                      OLEG SENTSOV AND RUSSIA'S

                       HUMAN RIGHTS VIOLATIONS

                      AGAINST UKRAINIAN CITIZENS






[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                           APRIL 27, 2017
                           
                           
                           
                           Briefing of the
            Commission on Security and Cooperation in Europe
======================================================================
                         Washington : 2017







	       Commission on Security and Cooperation in Europe
			 234 Ford House Office Building
			     Washington, DC 20515
		         	   202-225-1901
		       	      <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="e98a9a8a8ca984888085c781869c9a8cc78e869f">[email&#160;protected]</a>
			      http://www.csce.gov
		          	  @HelsinkiComm
		          	  
		       Legislative Branch Commissioners
		       
		       

              HOUSE				SENATE
CHRISTOPHER H. SMITH, New Jersey 	 ROGER WICKER, Mississippi,	
          Co-Chairman				Chairman
ALCEE L. HASTINGS, Florida		BENJAMIN L. CARDIN. Maryland
ROBERT B. ADERHOLT, Alabama		JOHN BOOZMAN, Arkansas
MICHAEL C. BURGESS, Texas		CORY GARDNER, Colorado
STEVE COHEN, Tennessee			MARCO RUBIO, Florida
RICHARD HUDSON, North Carolina		JEANNE SHAHEEN, New Hampshire
RANDY HULTGREN, Illinois		THOM TILLIS, North Carolina
SHEILA JACKSON LEE, Texas		TOM UDALL, New Mexico
GWEN MOORE, Wisconsin			  SHELDON WHITEHOUSE, Rhode Island

                      
                      Executive Branch Commissioners
                      
                      
                      DEPARTMENT OF STATE
                     DEPARTMENT OF DEFENSE
                    DEPARTMENT OF COMMERCE
                             [II]
                      


    The Helsinki process, formally titled the Conference on Security 
and Cooperation in Europe, traces its origin to the signing of the 
Helsinki Final Act in Finland on August 1, 1975, by the leaders of 33 
European countries, the United States and Canada. As of January 1, 
1995, the Helsinki process was renamed the Organization for Security 
and Cooperation in Europe [OSCE]. The membership of the OSCE has 
expanded to 56 participating States, reflecting the breakup of the 
Soviet Union, Czechoslovakia, and Yugoslavia.
    The OSCE Secretariat is in Vienna, Austria, where weekly meetings 
of the participating States' permanent representatives are held. In 
addition, specialized seminars and meetings are convened in various 
locations. Periodic consultations are held among Senior Officials, 
Ministers and Heads of State or Government.
    Although the OSCE continues to engage in standard setting in the 
fields of military security, economic and environmental cooperation, 
and human rights and humanitarian concerns, the Organization is 
primarily focused on initiatives designed to prevent, manage and 
resolve conflict within and among the participating States. The 
Organization deploys numerous missions and field activities located in 
Southeastern and Eastern Europe, the Caucasus, and Central Asia. The 
website of the OSCE is: <www.osce.org>.


    The Commission on Security and Cooperation in Europe, also known as 
the Helsinki Commission, is a U.S. Government agency created in 1976 to 
monitor and encourage compliance by the participating States with their 
OSCE commitments, with a particular emphasis on human rights.
    The Commission consists of nine members from the United States 
Senate, nine members from the House of Representatives, and one member 
each from the Departments of State, Defense and Commerce. The positions 
of Chair and Co-Chair rotate between the Senate and House every two 
years, when a new Congress convenes. A professional staff assists the 
Commissioners in their work.
    In fulfilling its mandate, the Commission gathers and disseminates 
relevant information to the U.S. Congress and the public by convening 
hearings, issuing reports that reflect the views of Members of the 
Commission and/or its staff, and providing details about the activities 
of the Helsinki process and developments in OSCE participating States.
    The Commission also contributes to the formulation and execution of 
U.S. policy regarding the OSCE, including through Member and staff 
participation on U.S. Delegations to OSCE meetings. Members of the 
Commission have regular contact with parliamentarians, government 
officials, representatives of non-governmental organizations, and 
private individuals from participating States. The website of the 
Commission is: <www.csce.gov>.




[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]




                         OLEG SENTSOV AND RUSSIA'S
                          HUMAN RIGHTS VIOLATIONS
                         AGAINST UKRAINIAN CITIZENS
                              ----------                              

                             APRIL 27, 2017


                                                               Page
                                                            
                              PARTICIPANTS

Ambassador David T. Killion, Chief of Staff, Commission on 
Security and Cooperation in 
    Europe                                                       1

Alex Tiersky, Policy Advisor, Commission on Security and 
Cooperation in Europe                                            8

A. Paul Massaro III, Policy Advisor, Commission on Security and 
Cooperation in Europe                                           11

Natalya Kaplan, Cousin of Oleg Sentsov and Journalist in Kiev    2

Mustafa Nayyam, Member of the Ukrainian Parliament               2

Halya Coynash, Spokesperson, Kharkiv Human Rights Protection 
 Group                                                           3

Alexei Sobchenko, Interpreter, Human Touch Translations          8

                              [IV]



 
 
                        OLEG SENTSOV AND RUSSIA'S
                          HUMAN RIGHTS VIOLATIONS
                         AGAINST UKRAINIAN CITIZENS
                              ----------                              

                             APRIL 27, 2017




    The briefing was held at 3:00 p.m. in room SVC 210, U.S. Capitol 
Visitor Center, Washington, DC, Ambassador David T. Killion, Chief of 
Staff, Commission on Security and Cooperation in Europe, moderating.
    Panelists present: Ambassador David T. Killion, Chief of Staff, 
Commission on Security and Cooperation in Europe; Alex Tiersky, Policy 
Advisor, Commission on Security and Cooperation in Europe; A. Paul 
Massaro III, Policy Advisor, Commission on Security and Cooperation in 
Europe; Natalya Kaplan, Cousin of Oleg Sentsov and journalist in Kiev; 
Mustafa Nayyem, Member of the Ukrainian Parliament; Halya Coynash, 
Spokesperson, Kharkiv Human Rights Protection Group; and Alexei 
Sobchenko, Interpreter, Human Touch Translations.

    Amb. Killion. Good afternoon, everyone. Thank you so much for 
coming and welcome to today's briefing on Oleg Sentsov and Russia's 
human rights violations against Ukrainian citizens. My name is David 
Killion, and I am the chief of staff of the Commission on Security and 
Cooperation in Europe, also known as the Helsinki Commission. As some 
of you may or may not know, the Helsinki Commission was created to 
monitor compliance with the principles of democracy and human rights 
enshrined in the Helsinki Final Act.
    When Russia invaded Crimea, it violated every one of these 
principles. This is the context that brings Oleg Sentsov's case before 
us today. Oleg Sentsov, a filmmaker and outspoken opponent of Russia's 
invasion of Ukraine, disappeared from Crimea following a May 2014 
demonstration, only to resurface in Russian custody in Moscow. He was 
declared, quote/unquote, ``Russian,'' and convicted on false charges of 
terrorism. Sentsov is now serving a 20-year sentence in Siberian prison 
where he has been subject to torture and simply inhumane conditions. 
Two appeals of the verdict have been rejected, as has a request for 
Sentsov to be extradited to Ukraine.
    As disturbing as his case is, Oleg Sentsov will be the first to say 
that his story is not unique. It's only one of many grave injustices 
committed against the Ukrainian people by the Russian Government. 
Olexandr Kolchenko, Roman Sushchenko, and Mykola Semena are just a few 
names on the long list of Ukrainians wrongfully persecuted for simply 
exercising basic rights. It's our hope that by highlighting Sentsov's 
case, we will bring attention to these other egregious cases and incite 
discussion on broader issues of Russia's illegal occupation of Crimea 
and aggression in eastern Ukraine.
    PEN America is honoring Sentsov's bravery this week with the 2017 
PEN Freedom to Write Award, which is the reason this distinguished 
group of panelists from Ukraine are able to join us today.
    To my left, we have Natalya Kaplan. Ms. Kaplan is the cousin of 
Oleg Sentsov, a journalist by profession, and a forceful advocate for 
Sentsov and other political prisoners in Russia. We're very lucky to 
have her here in Capitol Hill with us today to help inform us of 
Sentsov's nightmare and recommend what Congress can do.
    Next, we have Mustafa Nayyem, a member of the Ukrainian Parliament 
since 2014, a journalist and early organizer of the 2013 Euromaidan 
protests. As an advocate for European integration and an active voice 
for a new generation of Ukrainians, Mr. Nayyem's perspective will be 
extremely valuable to our discussion.
    Finally, Halya Coynash is a member of the Ukrainian Kharkiv Human 
Rights Protection Group and can provide us with greater context 
surrounding Sentsov's ordeal and other human rights abuses committed by 
Russia in Ukraine.
    Let me just make everybody aware that Natalya is going to be 
speaking in Russian today. And her spoken words will be translated, as 
will any responses to questions. The other two panelists will speak in 
English.
    So, first, Natalya, let me give the floor to you.
    [Note: Ms. Kaplan's remarks are made through an interpreter.]
    Ms. Kaplan. Good afternoon. My name is Natalya.
     I would like briefly to describe the place where Oleg is currently 
detained. The place is called Yakutsk, which is northern Siberia. The 
trees do not grow there. Due to poor infrastructure, sometimes when you 
turn on the faucet oil comes out. And anthrax is a popular disease over 
there. Oleg in his letters describes his life as a ``Groundhog Day'' 
movie. Every day is repetition of the previous one. And the only 
positive difference in his life is that this doctor treats him. Soon 
we're going to have a third anniversary of him being in jail. And if 
nothing is going to be changed, he's going to spend another 17 years 
there.
    Thank you for your interest in his case.
    Amb. Killion. Thank you very much. Thank you very much.
    And now we turn to Mustafa.
    Mr. Nayyem. First of all, thank you for your interest to this 
story--I could say, this absurd story about our citizen, about 
Ukrainian filmmaker Oleg.
    I would stress for today's discussion that Oleg has never been 
member of some state agencies. He never took a weapon. He never was 
involved in any action of government. He was just filmmaker who, in the 
moment of annexation of Crimea, protested against occupation of our 
territory of Ukraine. Now, he was forced to be a citizen of Russian 
Federation. Actually, Russian agencies they recognized him as a citizen 
of Russian Federation, which is against every legislation and human 
rights. And today, he is sitting on a colony in north Siberia.
    Actually, what we want to discuss regarding this issue is that now 
we feel that all judicial tools are, and we could not nothing to do 
with that, because our appeal was--you know, we failed. And only one to 
now is to put a pressure on Russia, not on the judicial issues but 
publicly, as an artist who is jailed now for his convictions, and who 
is jailed just because of his protest. And I think that the Congress 
and that those bodies who are in Washington, who can help us to build 
up this coalition of political bodies of international institutions, 
international human rights agencies and also NGOs, who can help us to 
warn about this situation, to say again and again it's not the issue of 
Ukraine and Russia. It's not the issue between two presidents or two 
governments. It's the issue of Mr. Putin himself and humanity. And the 
world, and all those people who are for freedom of expression.
    And I think that the PEN Center who awarded Oleg for his courage 
will take a leadership in this protest. And we'll be actually honored 
if someday we will see Oleg in this building and he will describe his 
story himself.
    Amb. Killion. Oh, I'm sorry. Thank you very much, Mustafa.
    And now, Halya.
    Ms. Coynash. I think I'll, first of all, say that Oleg's case was 
one of the first where the courts, the prosecutors, the entire Russian 
so-called justice system was used to--the first Ukrainian person to be 
imprisoned brazenly and openly in front of the world community, to some 
extent, used for complete repression. A very famous Russian human 
rights activist, Zoya Svetova, she called it an ``absolutely 
Stalinist'' trial. What I think I would like to say as well, and one of 
the reasons for the Magnitsky List, which we are hoping can be extended 
to cover this case, is because a very clear message has to be sent to 
Russia, but also to the specific individuals who take part in such a 
repressive process that there can be no impunity for that. So we would 
very much like to see that happen.
    I think the other point that I'd like to bring up on this subject 
is that Oleg is one of the first, together with Olexandr Kolchenko, 
they were tried together, and both obviously must be released. There 
are a very large number of other people, and the number is growing, 
especially with people in Crimea--though, it has to be said that, I 
mean, one of the prisoners, Roman Sushchenko, was actually simply 
imprisoned after he arrived to visit relatives in Moscow. So they are 
showing a degree of brazen lawlessness that we desperately need 
awareness of it.
    And I could give particular examples. There are a number of people 
who are imprisoned for roughly the same amount of time, including one 
person, by the way, whose mental state causes immense concern. Urgent 
intervention is needed now. Stanislav Klykh, his name is. He's also 
been sentenced to 20 years for nothing.
    Amb. Killion. Thank you.
    Halya, let me ask you a follow-up question to your testimony here. 
It's now been three years since Russia took control over Crimea. Can 
you tell us a little bit more about how life has changed for people in 
that peninsula since then? You know, we hear about the appalling--in 
general--the appalling human rights situation. And you've talked about 
some specific cases. But can you give us some more--some update on the 
general situation there?
    Ms. Coynash. It depends what you mean by the--I can talk about the 
general human rights situation. I mean, it is basically dire. The 
arrests of Crimean Tartars or arrests of Crimean Muslims--most of whom 
are Crimean Tartar, though not all--has become one of the weapons that 
Russia is using. There are, at the moment, 19 people who have either 
been convicted--one of them just two days ago--of ludicrous charges of 
involvement--unproven involvement in an organization called Hizb ut-
Tahrir, which is legal in Ukraine. It is completely legal in Ukraine, 
in the USA, in most countries. And Russia has decided, for no reason, 
to call it terrorist.
    The other ones, 15 of them, are imprisoned in Crimea in shocking 
conditions. All of them have children who will--if Russia has its way, 
will not see their fathers for 20 years even. So you know, we are 
talking about a very serious level of repression.
    Something that has become more common--at the very beginning there 
was a law that was brought in, in 2014--in May that year--that was 
feared at the time would be used against freedom of speech on Crimea. 
It has indeed become so. It's a particular article of the criminal 
code, 280.1, which is being used to either prosecute or to actually 
imprison Ukrainians or Russians for effectively saying that Crimea is 
Ukrainian.
    This is where freedom of speech has got to anywhere in the Russian 
Federation, and in occupied Crimea, that Ukrainians in Ukrainian Crimea 
who are saying that, as all international organizations do, that Crimea 
is Ukrainian are actually being prosecuted and face mandatory five-year 
sentences. In general, the freedom of speech situation, the press 
situation is also pretty catastrophic. After Mykola Semena, who was 
mentioned--the journalist--after he was arrested and is facing charges, 
as I said, of this five-year sentence for saying no more than that 
Crimea is Ukraine. After he was arrested, some other people were 
searched at the same time, and most of them have left.
    I think the message to most independent journalists is to shut up 
or leave. And in fact, it is possible that that's really the intention 
as far as Crimean Tartar are concerned as well, that they are hoping 
that a lot of them will simply leave. Opponents, ethnic Ukrainians as 
well, are constantly harassed. And some of them have actually decided 
to leave simply because the stakes are very high for their whole 
family. So that's good enough for me.
    Amb. Killion. Thank you.
    Mustafa, everyone in this room is an individual who wants to be 
effective in dealing with this problem. So let me ask--drill down a 
little bit on how we might be more effective. Let me start by asking: 
How closely do you and other Ukrainians MPs work with civil society 
campaigns, like the Let My People Go campaign for the release of 
political prisoners in Crimea and Russia. And how effective are these 
campaigns in bringing international attention to the case?
    Mr. Nayyem. I would say that after the revolution, that many people 
who were in the civil society, that they entered parliament. So now we 
have very good connection with the civil society, also with those 
organizations who work in the Donbas area and Crimea. We personally 
have worked with the organizations Crimea SOS and Donbas SOS, which are 
especially focused on human rights in these territories. And of course, 
with the Let My People Go.
    And what I feel, just frankly speaking, is that sometime it looks 
like international society, international partners, the thought that 
it's a real duel of two countries, and there is some war, and the 
Russian and those Ukrainians, and we don't know what is true and what 
is false, and someone is imprisoned and prisoners are on both sides. 
So, please, let's be objective. Which is not actually the case. And I 
think it's not fair and it's not the right way, because in this 
situation, first of all, we should come back and look from what 
actually started it. It started from the annexation and occupation of 
Crimea. And actually, in discussion--sometimes the discussion on 
sanctions is the same. Should we lift or should we not lift the 
sanctions? Should we put more sanctions or not?
    It's not about Ukraine actually, because we know what is going on 
in our country. We know who is Russia. And we doesn't have any 
illusions about that. But if sanctions would be lifted, all our 
international partners, in Western countries especially--United 
States--first of all, they will lose leadership on this issue, because 
for us it would mean that it is not about value. It's not about 
sovereignty. It's not about integrity. It's about business. It's about 
deals. It's about money. It's about relationships. But it's not about 
human rights. It's not about those people who died inside of Ukraine, 
more than 10,000, which died under war with specific country. It was 
not Ukraine who attacked. It was not Ukraine who made this so-called 
referendum in Crimea. This is not our fault. We didn't ask for this 
war.
    So when we're coming back to that, we should be very aware that all 
those people who are present and all those people who are in Russia, 
actually they are hostage of this situation. So we cannot discuss 
support them or not to support them. We cannot discuss are they right 
that they blame them or imprison them or actually imprisoned all those 
people who now are, like, terrorists or those who were involved in some 
war situation, because actually they protected their own country--
that's it. Even if you have this evidence, it's like Nadiya Savechenko. 
She protected her own country. That's why she was actually imprisoned.
    Oleg was not involved in any actions. He just protested against 
annexation of Crimea. That's his whole fault. I would say that sometime 
international society looks like--they want to look like they're 
objective, but in this time the keeping silence, I think it's a crime 
against Ukrainian people and it's a crime against the sovereignty, 
integrity of our country.
    Amb. Killion. Well, we experienced that even going to the 
international community at the OSCE PA and the OSCE in Vienna. But 
luckily one place that's not trying to be balanced is the U.S. 
Congress. There's clear-headed assessment of what the real situation is 
and what we need to do. And you know that a lot of things have been 
done here in Congress--the actual acts, like the Ukrainian Freedom 
Support Act, lots of resolutions about political prisoners, colloquies 
on the floor, et cetera, et cetera.
    What's the next level? What else does Congress need to do that it 
hasn't done?
    Mr. Nayyem. First of all, I want to express my gratitude that all 
these things were done for Ukraine because I remember all these years, 
starting in 2011 when Yanukovych was elected and I was a journalist and 
we covered all these issues, and what Mr. Senator Durbin did and this--
the resolution on Ukraine and against Tymoshenko's imprisonment--all 
these--I remember that. So it is not something that we miss or we don't 
know.
    We do know about that, and we actually--that is our hope because, 
to be frank, the situation in the last months in the United States a 
little bit disturbed us, I think even more than you. We don't know who 
is actually--who is leading Congress and Trump. And maybe these days we 
would like Congress to be the leaders in this process, because we know 
those people who are actually serving here. We know the values of these 
people.
    The next level, what could be done. First of all, you know that we 
have now this countering Russian aggression act that should be adopted. 
I hope that there will be no hesitation in adopting this act, because 
it hurts Russia when we're talking about energy sanctions, when we're 
talking about pipelines and about gas sector. And it's not something--
you know, sanctions for sanctions. These sanctions will hurt, we 
understand that.
    The second thing is, I think this is--I would say as a politician, 
not maybe even as a civil activist, that if we have some tools we used 
before, like the Magnitsky List, why we cannot amend it? Yes, we have 
some problems because the Magnitsky List, it was great work and great 
job of lawyers who prepared for that. But they did it once, and it's 
list open. Here in and European Parliament also.
    So I think that we can amend them. And I think the PEN Center is an 
organization who actually awarded, they will take--I think they have to 
have the leadership in the process, because actually this guy is, first 
of all, a filmmaker. He's not, you know, a lawyer. He's not a solider. 
He's an artist. So we as politicians, as parliament of Ukraine, as the 
Ministry of Foreign Affairs of Ukraine, will support this kind of civil 
initiative to amend the Magnitsky List with those people who prosecuted 
Sentsov, Kolchenko, who tortured them, who made this court decision, 
and also those agencies in which he is now imprisoned. So I think it 
would be fair. It's the long way, but we should do it. Personal 
sanctions, and very precise.
    Thank you.
    Amb. Killion. Great. Thanks. That's a great start.
    And now we want to have the audience engage, participate, ask 
questions. Who would like to go first? Don't be shy. Please. And if 
people could identify themselves and tell what organization they're 
from? And Jordan Warlick will provide you with a microphone.
    Questioner. Thanks. Good afternoon. My name is Deanna. I come from 
Ukraine, Kiev, and I'm a fellow here working in the House of 
Representatives.
    My question will be, Mustafa, you mentioned that Ukraine has 
exhausted all the judicial ways of helping Oleg. I was wondering, and 
maybe it's a question to Halya, what about the European Court of Human 
Rights?
    Ms. Coynash. Those two, Kolchenko and Sentsov, both have cases at 
the European Court of Human Rights. The problem--and Mustafa mentioned 
this before--the problem with the European Court of Human Rights--well, 
there are two problems. One is that it takes a very long time, years. 
The second problem is that Russia has already effectively said--they've 
made some nonsense about how it--if it's unconstitutional, or 
something, they can refuse to obey it.
    And in fact, one of the interesting things is that Kolchenko's 
first application--and I suspect there have been more than one by now--
to the European Court of Human Rights, was specifically over the issue 
of having Russian citizenship foisted on them. A lot of attention to 
that question of citizenship would be wonderful. But unfortunately, 
it's a long-term process. I mean, there are cases for almost all of the 
prisoners awaiting in the European Court of Human Rights. It would be 
nice if they gave it priority treatment, but unfortunately they don't.
    Mr. Nayyem. I will say, that as a government, we will support that. 
I mean, all application of our citizens who went to the Human Rights 
court, of course. The thing is that it will not release him. Let's be 
honest. Even if we would have this decision tomorrow, it will not 
release Oleg. So we should use all of the tools to do our job.
    Questioner. Of course. And there is a case, Ukraine versus Russian 
Federation, in the International Court of Justice right now. Do you 
think that can in any way help all the prisoners?
    Ms. Coynash. The Russian president's press secretary has already 
effectively said that they will not comply with one of the major--there 
was a--the International Court of Justice a week ago or so, gave a 
judgement--preliminary judgement, which was basically in Ukraine's 
favor. It decided on three counts in Ukraine's favor and one count 
against. The one count against was that they did not enforce 
provisional measures against Russia in Donbas. They simply said that 
they wanted--but they have accepted the case against Russia on that, 
and also on discrimination in Crimea.
    Now, the problem is they did take provisional measures--is that 
what they're called? Provisional, yes. Provisional measures in Crimea 
over discrimination of Crimean Tartars. And they specifically said that 
the ban on the Mejlis must be lifted. The president's press secretary 
has already said that--well, lied, basically. Said that there were 
reasons for banning it, and they're not going to comply. So it's a very 
important judgement, but, again, like with what Mustafa said about the 
court in Strasbourg, Russia needs pressure from you--[laughs]--from the 
Congress, from America, from other countries to ensure that it does 
comply.
    Mr. Nayyem. I would amend two things. First of all, we really think 
that it's not great, but it's small victory of Ukraine in these 
decisions. First of all, because if you, for example, remember the case 
Georgia versus Russia in 2008, they lost it. The court even didn't 
recognize the jurisdiction of this court. So Ukraine on both convention 
of terrorist and racial discrimination we are accepted. So applications 
are accepted, which is great job for our Ministry of Foreign Affairs.
    Second, is that by this decision Crimea was recognized as annexed 
territory, and it was international military conflict. It means that 
whatever--even if Russia would not recognize this decision, at the end 
of the day they will pay for that because it's international court--
someday. Provisional measures are something for today, but historically 
this territory is recognized as annexed territory. So they will pay for 
that.
    And about terrorism on the inside, let's see, I think we'll have 
more arguments, because it was--they told that they didn't have enough 
proof that Russia actually financed terrorists on our territory, which 
actually--I think MH17, we can call it whatever you want, but it's 
terrorism. And for all humanities, very obvious. Maybe there was not 
some very vital and very precise proofs, but we will find them. It's 
not a problem. But historically, they recognize that there is terrorism 
on that territory. And from the other side, they said this territory 
was annexed.
    Thank you.
    Ms. Coynash. I'll just add one little point about the MH17. At the 
international court, what actually happened--because there's an 
alternative opinion from one judge, who in fact wanted the provisional 
measures. He explained that MH17 had largely been left out of the 
consideration at the moment. And the thought that it ought to have been 
put in. It will eventually be put in. So they have accepted the case. 
It's just that they didn't want to bring provisional measures while 
they didn't have all the proof. But MH17 is undoubtedly--[laughs]--
terrorism.
    Questioner. I just wanted to add that even though there's always 
been problems with enforcement of international decisions of courts, I 
still think it's very important that the international organizations 
recognize what's really happening, and will be still helpful at the end 
of the day.
    Thank you.
    Ms. Coynash. Thank you very much.
    Amb. Killion. Thank you.
    Alex Tiersky, from the Helsinki Commission.
    Mr. Tiersky. Thank you very much, Ambassador Killion.
    I would like to ask Ms. Kaplan three questions about her cousin. 
And I'll ask all three of them at once, please. The first question is, 
how can you monitor his condition? And what barriers are there for 
monitoring his condition, whether for visits by family, the press, 
advocates or the Ukrainian Government that he recognizes as his own? 
This is the first question.
     My second question is, how does he maintain this amazing combative 
spirit that we see in the letters and the documentation that we do hear 
from him?
    And then my third question, what do you think makes him so 
dangerous to Russian authorities?
    Thank you.
    Ms. Kaplan. It's quite a challenge to monitor his situation 
because, first of all, the Ukrainian consular officials are not allowed 
to visit him on the basis that he is a Russian national. Russian 
journalist and human rights activist Zoya Svetova tried to get in a 
meeting with him, but she was also denied without any reasons provided.
    Letters sent to him from overseas do not reach him, and one should 
use all kinds of tricks in order to send him any information. And the 
information which we receive about his situation, about his conditions, 
we learn indirectly, and I'm not going to specify what kind of channels 
we use to get this information.
    Oleg refused to meet his relatives, his family members because it 
is a very stressful, emotional kind of event. And he himself saw other 
prisoners who got into a deep depression after meeting their family 
members, so he would like to avoid this risk.
    I can't answer your second question. It's a mystery to me how he 
manages to maintain his combative spirit.
    The reason why Oleg was arrested was not because he was 
representing any kind of threat to the Russian Government. The reason 
was just simply the Russians needed to have an explanation, a 
justification for their invasion of Crimea and the justification was--
--
    Mr. Sobchenko. I'm sorry, I'm going to expand the answer because I 
know it by heart. The reason was that Russians needed to have a pretext 
to protect the Russian-speaking population from so-called Ukrainian 
right-wing, radical organizations, so they needed to find the presence 
of those organizations which were known. And as a result, they seized 
randomly people who were objecting to the Russian invasion, and they 
announced them to be, deemed them to be Ukrainian radical activists in 
Crimea.
    Ms. Kaplan. The only threat Oleg represents to the Russian 
Government is the fact that he's a very blunt man and he calls a spade 
a spade. When he had his last word in the court, I saw how even the 
Russian journalists, who were basically representing the propaganda 
pro-government media, were emotionally impacted by his words.
    Indeed, his words can be so powerful that the Russian TV never 
showed him speaking. And after putting him in jail, they tried to 
silence him. They stopped even mentioning his name. So basically, the 
main threat to the Russian government from Oleg Sentsov comes from his 
ability to speak very forcefully.
    Amb. Killion. Next question.
    Questioner. Thank you very much. Oleksandr Oborskyi, embassy of 
Ukraine.
    At a previous event at Freedom House today, Mustafa and Halyna 
said, regarding the initiative to add Magnitsky List, there is much job 
that has to be done to track and identify all those investigators, 
Russian investigators, Russian officials who are related to this abuse 
of Oleg Sentsov and others. And my question is, have you--how it 
works--have you previously identified how many people, volunteers, 
funds are needed to organize this job? And what is private or what is 
government dimension of it? What government can do for this?
    Ms. Coynash. I mean, I think one of the issues at the moment 
probably is--in fact, Gabe here from PEN America we're hoping is going 
to help a little bit with the legal advice about what kind of proof is 
required for the Magnitsky List. Because the problem is not so much 
identifying some of the people. The judges are known. The investigators 
are largely known; in Sentsov's case, they are known. The problem is 
that, firstly, you can't necessarily find the people who committed the 
torture; you can't find their names because--well, for obvious reasons, 
I guess.
    The other problem is always finding enough proof to meet your 
requirements in America with the Magnitsky List. I mean, it must stand 
up in a court of law, I understand. And that's the area where we know, 
but you need to provide sufficient proof. So it's really the proof that 
is the issue.
    And, Mustafa, yes----
    Mr. Nayyem. Maybe we'll ask for some assistance from the embassy 
also. We asked for minister of foreign affairs of Ukraine and from 
secret service of Ukraine who already have some names, as I know. The 
problem is--it's not to name them, because those people who actually 
signed the prosecution documents or who made a decision or the head of 
these bodies, they are known. The problem is that these sanctions which 
will be put on these people by Magnitsky List act, these sanctions 
could be challenged in court here in the United States. So we should be 
very convinced that our proofs are strong.
    And I think that we are, in this case, we are just involvement side 
part because we can just help with that as parliamentarians, as a 
government and as a secret service and as a minister of foreign 
affairs, but it should be done by civil society and I strongly believe 
that this should be done by NGOs, by those people who are about human 
rights, because it's not the case of Ukrainian Government. It should be 
done by those people who really support Oleg, because as a government 
we support all our citizens. But now we have a very specific case in 
which are sentenced--this is an artist. Again and again I will repeat 
that. This guy would never work for government. He's our citizen, but 
NGOs know more now and they have much more information and I think they 
have much more power and they are much more reliable in this situation.
    So I think the PEN Center, the leadership belongs to them in this 
process because actually they're the first international agency who 
awarded Oleg for his courage. And I think the Helsinki Commission would 
help us also with how to follow this procedure. But the names and all 
other things should be done by NGOs.
    Amb. Killion. Thank you.
    Did the gentleman over here have a question?
    Questioner. I'm Gabe Rottman. I'm the Washington director for PEN 
America. And I just wanted to thank the Helsinki Commission, Ambassador 
Killion, and especially the staff of the Commission for holding this 
briefing. It's crucially important, and we're extremely honored to be 
here.
    I actually just had a question. I'm new--this is my fourth week. 
And I'm also new to this case and new to international human rights 
law. I'm a sort of domestic-first person. And one of the things that 
struck me as particularly interesting and insidious in this case is the 
fact that Russian citizenship was foisted, as you say, on Oleg. I was 
wondering if you could say more about that aspect of it--how that 
happened, and whether it's happened to anybody else.
    Ms. Coynash. Well, as far as we know, I think it's Kolchenko and 
Sentsov at the moment, because in other cases they have actually done 
the opposite, almost. A couple of people have actually been deported 
from their own country, from Crimea, simply, or else banned from 
entering Crimea, like Mustafa Dzhemilev.
    Now, in the case of Kolchenko and Sentsov, I think really the issue 
was they had not--the excuse was that they were given a month in which 
to formally state that they wanted to remain citizens of their own 
country after Russia invaded. Now, clearly, the situation was that a 
lot of people, even had they known and even if it was easy for them to 
get to the three offices in all of Crimea that were open to do this, a 
lot of people simply on principle would not have done it. I mean, why 
would you go and say that you want to be a citizen of your own country 
when somebody else has invaded it? So they had not done this and that 
has been used as the excuse.
    I think there is absolutely no doubt that the European Court of 
Human Rights will decide in Sentsov's favor and in Olexandr Kolchenko's 
favor. In fact, even the Russian ombudsperson, the previous one, agreed 
that they were Russian citizens. So, you know, this is reasonably clear 
that if a Russian human rights ombudsperson can actually say that, that 
there really are no grounds for doing it at all.
    There's one other thing. I simply wanted to say as far as one of 
the times where Oleg Sentsov has doubtlessly annoyed the people in the 
Kremlin very much was actually on this particular subject about 
citizenship where he said I am not a serf to be sent around, to be 
handed to somebody else.
    Mr. Sobchenko. The serfs were transferred with the land.
    Ms. Coynash. Yes, to be transferred with the land. Well, I mean, 
except that, of course, it wasn't transferred, it was stolen. But yes.
    Questioner. That's great, thank you.
    Mr. Nayyem. I want to amend something. First of all, you know, the 
Russian actions, now everything is hybrid. So Sentsov recognized as a 
citizen of Russian Federation, but official papers, in his sentence, 
there is no sign who is he. I mean, it's empty, no citizenship, Ukraine 
or Russian. So it allows them to recognize him when it's convenient, 
Russian citizen, or it's not convenient Ukrainian. But it doesn't 
allow, for example, our ambassador to come to him.
    But from the other side, International Criminal Court recognizes 
territory annexed and occupied, it means that all Geneva Conventions 
work there. And, by Geneva Convention, no one can be forced on occupied 
territory to be a citizen of another country against his will. So I 
think it is a crime already, because he was citizen of Ukraine and now 
he was forced to have to be a citizen of Russia. So it's an open crime 
and I think we will investigate it in the future.
    Amb. Killion. Thanks, Gabe, for your question. And also, thank you 
very much for collaborating with us on this event. I'm sorry I didn't 
recognize you.
    And I also want to thank Suzanne Nossel, my former colleague in the 
Obama Administration, who, along with you and everybody else at PEN 
America, does such great work. And we absolutely are offering our 
services to collaborate with you on this case and other cases in the 
future. And all of my experts are here today. Thanks.
    Any other questions?
    Paul Massaro. Paul Massaro is also on the Helsinki Commission 
staff.
    Mr. Massaro. Gabe, you beat me to the punch on that one. I also 
thought that was the most remarkable thing about this case.
    And I just wanted to ask a follow-up question concerning this 
imposition of citizenship. And that is, is this an original innovation 
of Putin? Or are there historical examples of this happening? And if 
so, how were they combated in history in other scenarios?
    Ms. Coynash. Oh, yes, of course. Immediately after the Second World 
War, of course, a lot of people were deported from, I understand, from 
various places. Poles were deported to--actually, I'm going to get this 
wrong, the wrong way around. Ukrainians were deported to Poland. 
Actually, I think I'm going to mix it up. But basically, people were 
forced to leave the part of the territory they were on. And they were 
simply made into other nationalities.
    I'm sorry, Alexei is probably better on this subject.
    Mr. Sobchenko. When Hitler and Stalin divided Poland, part of 
eastern Poland, which was occupied by the Soviet troops, all the 
denizens of those territories automatically were defined as Soviet 
citizens and were punished by law for violating--just for being, let's 
say, bourgeois or clerical--church men. Because it was punished by the 
Soviet law, they were sentenced by the Soviet laws for being what they 
were.
    Mr. Massaro. So this type of imposition has precedent in Soviet 
history ?
    Ms. Coynash. Soviet, yes.
    Mr. Massaro. --through the forceful distribution of population.
    Ms. Coynash. Yes. So does the use of torture to get confessions. A 
lot of what is happening at the moment in Russia and with respect to 
Ukrainians and with respect to Russians have bad echoes from Soviet 
times, yes, and generally from the Stalinist period, unfortunately.
    Mr. Sobchenko. And eventually, all the Baltic republic citizens 
were by default converted to the Soviet citizenship.
    Ms. Coynash. Yes, yes.
    Mr. Sobchenko. But that was basically part of the same deal. But 
the same is true about the part of eastern Romania called Bessarabia 
which was annexed by the Soviet Union as well. So, of course, the 
Transcarpathia region, which was part of Czechoslovakia and was 
transferred to the Soviet Union in 1945, the same also. I'm sorry.
    Amb. Killion. And the French gave away the Baltics embassies, but 
we kept them. [Laughter.]
    Anyone else?
    Questioner. Hello. My name is Anna Zamejc, and I'm a fellow here at 
the Helsinki Commission, and I'm also an NGO project manager with 
People in Need, Clovek v Tisni, based in Prague.
    I actually have two questions, one very short. Have there been 
actually any mediation attempts between Ukraine and Russia in the case 
of Oleg Sentsov?
    And the second question, do you feel actually that the European 
Union is doing enough in the case of Ukrainian political prisoners? And 
who is actually the leading advocate for Ukraine these days? I'm from 
Poland originally and I'm very sad to see that Poland has been 
withdrawing itself very much from the process. And Jaroslaw Kaczynski 
has signaled that the policy of Poland on Ukraine might be subject to 
change.
    If you could address those questions, thank you.
    Ms. Coynash. I think that both--well, as far as the advocates are 
concerned, I think the Baltic states, for reasons that I will--I'm 
sorry if they're obvious, but I will spell them out. The reasons are 
relevant, I think, to everybody, which is that they are the countries 
who are next in line and who--I mean, as well as other reasons. They've 
always been one to follow anyway, but then, so was Poland before the 
present regime.
    With the Baltic states, they have also understood a lot of things 
that I think the rest of the world is taking a bit longer to understand 
about the uses of disinformation, the uses of propaganda and generally 
the problems of hybrid warfare simply because they are very much the 
next target.
    As far as the European Union is concerned, well, probably not, but 
then, it is always very hard to know quite what to do in a situation 
like this. I think everybody needs to--I think the sanctions must be--
there should never be any suggestion that the sanctions could be 
removed, firstly, until the agreements are reached. And probably, I 
think they needed to be strengthened from the start about Crimea. And 
it should have been understood from the beginning, from the outset that 
until Russia left Crimea that there could be no consideration of 
leaving sanctions.
    Mr. Nayyem. I would say start from mediation. What do you mean 
exactly? Is this about negotiation for----
    Questioner. A third-party mediation.
    Mr. Nayyem. You know, there are so many formats of negotiation with 
Russia. And there is no one which of them who had results with it. We 
have Normandy format and Minsk format, we have some other countries 
which try to be kind of like Great Britain, to be a neutral negotiator, 
but it doesn't work. Maybe it would work if we would not have war. But 
in a case when we have war, everything is about war, it's about 
hostages, it's about prisoners, what they need, what they want to 
change for this guy, et cetera. So I cannot say that now is--we do not 
have this player who can be neutral in this situation, be mediator, 
because I think that if you would find some country which can be 
neutral, it would be very bad situation for us. Because in this 
situation when you see this aggression from Russia, I don't know who 
can be neutral. Same about leading advocate and the role of EU.
    And I would say that leading advocate of Ukrainians for these days 
unfortunately are Ukrainian soldiers. Because I'm convinced that all 
these words which world leaders can say to Mr. Putin, all this 
toughness of Germany and France and even the United States sometimes, 
all this courage is based on the situation on the ground on our front 
line. If not for Ukrainian soldiers two years ago, no one would stop 
them because we don't have any supplies of weapons or troops who helped 
us three years ago to stop Russians on our border. So they are our main 
advocates.
    But if you are asking me from other parts of the world, I would say 
that there are--I cannot name someone, but I would say that there are 
those politicians who have the courage and leadership to say the truth. 
For us, it's enough. Of course, we see now a different situation what 
is going on in the United States because we have different people in 
the United States. Three days ago, I saw National Security Adviser 
McMaster in Arizona, Sedona. I was happy what he said about United 
States. But at the same time, we see those tweets after Secretary of 
State Tillerson's visit to Moscow, and we are a little bit frustrated 
with that. From the other side in Europe the situation with Pedro 
Agramunt, who visited Syria in these times. And they even don't think 
that they are guilty. And Ukrainian delegation made a lot of things to 
make him resign.
    So in these days, we cannot say that some country is, but we can 
name those politicians who really have this courage to say the truth. 
Angela Merkel is our partner, definitely. Poland is our partner, 
definitely. There are different politicians there also, but mostly we 
feel that they are with us. In France, we are waiting. Can we say 
something? No, not yet. Netherlands--three months ago we were 
frustrated with its position. Now we know that the election has brought 
some wins. Germany, again, Steinmeier was not our partner, 
unfortunately. Angela is our partner. So in other countries, the same 
situation, so now everything is mixed. But leading advocate of us and 
of those countries who are [encountered ?] Russia unfortunately are 
soldiers and military forces.
    Amb. Killion. Thank you.
    Let's have one more question, the gentleman here.
    Questioner. Hello, my name is Yaroslav Dovgopol. I am a Ukrainian 
journalist here and I'm working with Ukrainian news agency, Ukrinform, 
in the United States.
    First of all, I would like to thank the U.S. Helsinki Commission 
for your efforts supporting Ukrainian prisoners who are detained in 
Russia, including Oleg Sentsov; including my colleague and friend Roman 
Sushchenko, who is detained in Moscow; including Mykola Semena; and 
others.
    Yesterday, you organized here in Congress regarding human rights in 
Russia where you mentioned people from Ukraine who are in Russian 
prisons because of their resistance to Russian aggression. They are not 
just Ukrainian people. They are Russians and others.
    And I have a question to you, Mr. Ambassador. Is the U.S. Helsinki 
Commission going to make a statement after these events, which call on 
the U.S. Government and the U.S. Congress to increase pressure to 
Russian Government to release Ukrainian and Russian prisoners from 
Russian prisons?
    Thank you.
    Amb. Killion. Well, thank you very much. We hope we're making a 
statement by the events of this week, both our hearing and our briefing 
here today. And we'll certainly be looking at ways to amplify that 
statement. And we appreciate your suggestion.
     I just want to thank everyone here on the panel today. I think 
this was a very useful briefing. And I also want to thank everybody in 
the audience. The questions were absolutely excellent. And I think 
everybody here today learned more about the situation and hopefully 
also can take away some new ideas about--many people in this room are 
policymakers--about how we can continue to refine and improve our 
policy and continue to refine and improve our policy and continue to 
find ways to put pressure on Russia to change its aggressive behavior.
    So thank you very much, everyone.
    And also, thanks again to PEN America. We really enjoyed this 
opportunity to collaborate with you and we hope that it will continue 
in the future.
    And finally, I just want to thank my staff and especially Jordan 
Warlick, who I hope all of you will meet. She's a new member of my 
staff and she is the lead for the Helsinki Commission on press freedom 
now. So it's very appropriate that she worked on this hearing.
    And all of you should also meet Alex Tiersky. We lost our Ukrainian 
staffer of 35 years to retirement yesterday. Orest Deychakiwsky 
retired, and so Alex Tiersky is going to take the lead on Ukraine. And 
I hope everybody will get a chance to meet him as well.
    Thank you. [Applause.]
    [Whereupon, at 3:58 p.m., the briefing ended.]

  

            This is an official publication of the Commission on
                    Security and Cooperation in Europe.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                  This publication is intended to document
                  developments and trends in participating
                  States of the Organization for Security
                     and Cooperation in Europe (OSCE).

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

           All Commission publications may be freely reproduced,
            in any form, with appropriate credit. The Commission
            encourages the widest possible dissemination of its
                               publications.

                  <SUP><</SUP> <SUP><</SUP> <SUP>< </SUP>

                      www.csce.gov       @HelsinkiComm

                 The Commission's Web site provides access
                 to the latest press releases and reports,
                as well as hearings and briefings. Using the
         Commission's electronic subscription service, readers are
            able to receive press releases, articles, and other
          materials by topic or countries of particular interest.

                          Please subscribe today.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
